                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

    Case Number: A08060033                                                                   . Page 1 of 1



                  Our investigation substantiated an allegation regarding four SBIR proposals 1 submitted to
                         2
            NSF by the PI that contained plagiarized text. We concluded the PI had committed plagiarism.
            We recommended NSF make a finding of research misconduct.

                     This memo, the attached Report of Investigation, and the Deputy Director's decision
            letter constitute the case closeout: Accordingly, this case is closed.




NSF OIG Fonn 2 (11102)
      CONFIDENTL\L                                                                              CONFIDENTL\L




             National Science Foundation
               Office of Inspector General


I.
I .
I




                            Confidential
                       Report of Investigation
                      Case Number A-08060033
                                  1 December 2009


       This Confidential Report of Investigation is the property of the NSF OIG and may be disclosed outside
         . NSF only by OIG under the Freedom o fIn formation and Privacy Acts, 5 US.c. §§ 552, 552a. .

                                                                                     .   NSF OIG Form 22b (11/06)
CONFIDENTL\L                                                                 CONFIDENTL,\L




                                       Executive Summary

Allegation:   Plagiarism

OIG Inquiry: A funded NSF proposal contained text copied from multiple source documents as
             well as citations copied along with the text (embedded citations). Because the PI
             (the subject) worked at a small company, OIG performed the investigation.

OIG's                                                   .'.

Investigation: OIG identified three additional NSF proposals with copied material. OIG
 .             concluded the subject committed research misconduct.

              The Act: The subject plagiarized a combined total of 128 lines of text, from 13
              source documents, into 4 proposals, 2 of which were funded. The copied text also
              contained 20 embedded citations.

              Intent: OIG concluded the subject acted knowingly.

              Standard of Proof: The preponderance of the evidence supported the conclusion
              that the subject plagiarized text and citations in her NSF proposals.

              Significant Departure: The subject's copying of text and citations represents a
              significant departure from community standards.

              Pattern: The subject's submission of 4 proposals to NSF containing plagiarized
              materials over a 13-month period of time suggests that her actions were a part of a
              pattern.

OIG Recommendations:

              Send· a letter of reprimand to the subject informing her that NSF has made a
              finding of research misconduct;

              Require the subject to certify that proposals she submits to NSF for 1 year do not
              contain plagiarized, falsified, or fabricated material; and

              Direct the subject to attend a course in research ethics within 1 year.
                                                     DIG's Inquiry

  OIG reviewed an allegation that the subject'sl funded NSF proposal, Proposal 1 (Tab 1)2,
  contained plagiarized material. Our review identified about 78 lines oftext and 20 citations
  copied from sixsource documents into Proposal1? None of the copied text in the subject's
  proposal was offset or distinguished in any way to enable the reader to differentiate the
  apparently copied text and citations from the subject's own text and citations. We wrote to the
  subject to obtain her perspective on the allegations (Tab 2).

     In the subject's response (Tab 3), she explained that she

            did use identical or substantially similar to the literature material· text when
            preparing backgroundlhistory section in my proposaL I tried my best to properly
            cite every paper I borrowed the information from. Somehow, I thought if I cited
            the paper I would better keep as close as possible to the original text in order not
            to bend the facts/thoughts of the authors. I did not intend to steal other people's
            work. [4]

  Based on our review, we concluded the subject didnot reference the sections of text that she had
  copied from the 6 source documents. Instead, she referenced other documents or simply
  included the citations already contained within the text she copied (embedded citations), and
  failed to cite the actual source of the copied text. The subject also failed to answer question
  number 5 regarding any additional text in other proposals that was copied from sources but was
  not properly distinguished and attributed.

  As a result of our inquiry, we determined that there was sufficient substance to proceed to an
  investigation. However, the subject worked at a company with fewer than 10 employees making
  it difficult to find employees who could conduct the investigation without conflicts of interest.
  Therefore, we conducted the investigation.

                                                DIG's Investigation

  As part of ourinvestigation, we reviewed additional proposals. submitted by the SUbject. This
  review identified three additional NSF proposals, one of which was funded, that appeared to
  contain copied text. We wrote to the subject (Tab 4) providing copies of the three additional




 1    The subject,                                                                            Company).
 2    NSF proposal                 (Proposal 1),                                                " was submitted by the
     subject as the sole PI. It was submitted on                  (funded,
. 	 3 Tab 1 contains the annotated and cross-referenced Proposal 1 with the six source documents.
    4 6 August 2008 response from the subject (Tab 3).




                                                           2
 proposals and alleged source documents: Proposal 2 (Tab 5),5 Proposal 3 (Tab 6),6 and Proposal
 4 (Tab 7).7


 The subject's response (Tab 8) discussed Proposals 2,3, and 4, which, taken together, contained
 an additional 50 lines of copied text. She stated that the annotated materials in Proposals 2 and 3
 were written by a marketing specialist, hired by the Company and that this same text had been
 used in several bio-defense proposals submitted during the previous 5 years. She stated that the
 quotations for this text were omitted by mistake. Regarding Proposal 4, the subject stated that
 some of the text was from a commercial source which she did not believe she needed to quote
 and the remainder was text commonly used in Company proposals and did not require quotes.


                                               DIG's Assessment

 NSF's Research Misconduct Regulation states that a finqing of misconduct requires:

         (1) There be a significant departure from accepted practices of the relevant research
         community; and (2) The research misconduct be committed intentionally, or
         knowingly, or recklessly; and (3) the allegation be proven by a preponderance of
         the evidence. [8] .                 .




                                                    THE ACT

  The subject copied over 128 lines of text from 13 different source documents9 into four NSF
  proposals. The subject responded that some of the text was kept close to the original text in
. order not do distort the information portrayed by the original authors, some of the material was
  taken by others (marketing specialists hired to prepare proposals), and, in a couple of instances
  quotations were dropped by mistake. However, by improperly citing text within her proposals,
  she failed to acknowledge the efforts of others in the development of the text. By failing to
  appropriately distinguish verbatim copied text from her own, the subject was presenting these
  materials as her own work. Further, although the subject stated that others were hired to write
  parts of the proposals, some of which contained copied text, these other writers were not listed as
  authors as is expected by NSF. 10 The table below summarizes the subject's actions:



SNSF proposal                (proposal 2), entitled
 submitted by the subject as the sole PI. The
6 NSF          •     I       (Proposal 3), entitled "• • • • • • •
                   submitted by the subject as the sole PI. The proposal was submitted on
 (funded
7NSF proposal                (Proposal 4), entitled 

 was submitted by the subject as the sole PI. The proposal was submitted on                 (declined). 

 845 CFR § 689.2(c).
9 The source documents included 10 online articles/advertisements and 3 publications.
10 GPG Chapter 1, D.3. (09/01104)




                                                        3
                                              INTENT


  By her own admission, the subject acknowledged that she copied much of the text into proposal
  1 and proposal 4 without appropriately distinguishing the work of others from her own work.
  The subject does suggest that the copied text in proposal 2 and proposal 3 were originally copied
  by a marketing specialist hired by her company~ and she then used this copied text in her
  proposals. However, she neither provided any information regarding the identity of this
  marketing specialist, nor identified the marketing specialist as a co-author of the proposals.
  Further, there are no quotations to dIstinguish the copied text. Although subject states that she
  mistakenly deleted these quotations, she provides no explanation or evidence supporting this
. claim. Therefore, we conclude that the subject acted knowingly when she copied text into her 

 proposals. 


                                       STANDARD OF PROOF


 Based on the evidence and the subject's responses, we believe the preponderance of the evidence
 indicates the subject copied un attributed text into her proposals without appropriately
 distinguishing these from her own work. In doing so, the subject significantly departed from the
 accepted practice of her research community. 11

 Because the preponderance of evidence proves the subject knowingly copied unattributed text 

 into her four proposals, we conclude that the subject committed plagiarism and, hence, 

 committed research misconduct. 


                                        Subject's Response

  We wrote to the subj ect on 16 September 2009 providing a copy of the draft investigation report
  (Tab 10). The subject's 3 November 2009 response (Tab 11) reiterates her earlier responses .
. We have no changes to the report based on her November 2009 response ..




                                                 4

                                      GIG's Recommended Disposition

 In deciding what actions are appropriate when making a finding of research misconduct, NSF
 must consider several factors. These factors include how serious the misconduct was; whether it
 was an isolated event or part of a pattern; its impact on the research record; and other relevant
 circurnstances. 12

                                                   Seriousness

  As we noted above, we concluded the preponderance of evidence supports the conclusion that
  the subject acted knowingly when'she plagiarized material into her proposals, a significant
  departure from the accepted practice in the research community. Plagiarism strikes at the heart
  of research integrity and is an unacceptable practice within the research community. Although
  the amount ofplagiarized text was not as egregious as some cases seen by our office, we
. conclude it was sufficiently serious to warrant a finding of research misconductY .

                                                Degree ofIntent

 Although the subject's education was partially outside of the United States, she did complete and
 receive her Ph.D. from a U.S. institution. Following receipt of her Ph.D., she was employed by
 several different U.S.-based small businesses. In addition, the subject has published a few
 articles in professional journals. Although not as ~gregious as other past cases involving
 plagiarism in NSF proposals, we nonethelessconcIude that her intent was distinctly knowjng. '

                                                     Pattern

 The subject submitted four proposals to NSF that contained plagiarized text. The subject's
 practice of plagiarizing text into multiple proposals was part of a pattern of behavior.

                                       Impact on the research record

 There was no apparent impact on the research record as a result of the subject's actions;

                                              Recommendations

We recommend NSF take the following actions as a final disposition in this case to protect the
interest of the Government:




12
   45 CFR § 689.3(b).
13 The program officer who managed Proposal 1 is not longer at NSF. The program officer's evaluation, the panel
summary, and the reviews made no comments concerning the information in the sections of copied text. The reviews
and panel summary showed no indication that the plagiarism had been noted. Proposal 3 contained 17 lines of
copied text which focused on summaries of the present status to the proposed research. We did not consider this
significant enough to request a program manager evaluation. We concluded that none of the copied text in either of
the proposals was material to the decision to fund them.


                                                        5
                                                             --       ~-.-----   ..­
        1. 	 Issue a letter of reprimand informing the subject that NSF has made a finding of research
             misconduct against her. 14                       .


        2. 	 Require the subject to certify that proposals or reports she submits to NSF do not contain
             plagiarized, falsified, or fabricated material for a period of 1 year;lS

        3. 	 Directthe subject to attend a course in research ethics within 1 year of the final 

             disposition of the case. 


The subject's certifications and proof of an ethics course should be sent to the Associate
Inspector General for Investigations for retention in ~IG's confidential file on this matter.




14   A letter of reprimand is a Group I action (45 C.F.R. § 689.3(a)). . 

15   Certification by an individual is equivalent to a Group I action (45 C.F.R. § 689.3(a)). 



                                                              6
                                     NATJONAL SCIENCE FOUNDATJON
                                         4201 WILSON BOULEVARD
                                        ARLINGTON, VIRGINIA 22230




                                               MAR:; 1 2010




  CERTIFIED MAIL --RETURN RECEIPT REQUESTED 





         Re:    Notice ofResem'ch Misconduct Dete1'Juil1atiol1




                                                                      • As documented in the
 attached Investigative Report prepared by NSF's Office of Inspector Gelleral ("GIG"), these
 proposals contained plagiarized text and embedded references.

 Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication,falsification,
or plagialism i.n proposing or perfomung research funded by NSF ..." 45 CFR § 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or "yords
without giving appropriate credit." 45 CFR § 689.1 (a)(3)~ A finding of research misconduct
requires that:                                                  .

        (1) 	There'be a significant departure from accepted practices of the relevant research
             community; and        .                                                         .
        (2) 	 The research misconduct be committed intentionally, or knowingly, ot recklessly; and
        (3) 	 The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposals contained verbatim and paraphrased text, as well as several embedded
references, copied from thirteen source documents. By SUbmitting proposals to NSF that copied
the ideas or 'words of another without adequate attribution, as described in the OIG Investigative
Report, you misrepresented someone else's work as your own. Y Ollr conduct unquestionably
constitutes plagiarism. r therefore conclude that your actions meet the definition of "research
misconduct" set forth in NSF's regulations.
                                                                                                   Page 2
           Pursuant to NSF regulations, the Foundation must also determine whether to make a
   finding of misconduct based on apreponderance of the evidence. 45 CFR § 689.2(c). After
    reviewing the hlVestigative Repolt. NSF has detenilined that, based on a preponderance of the
   evidence, yourplagiadsm was committed knowingly and constituted a sigtlificant departure from
   accepted practices of the relevant research commUllity. I am, therefore, issuing a finding of
   research misconduct against you .

          .NSF's reglliations establish tln'ee categories of actions (Group I, IT, aJ;l.d ill) that can be
   taken in response to a findingofnJisconduct. 45 CFR § 689.3{a). Group I actions include
   issuing a letter ofreprulland; conditioning awards 011 prior approval ofparticular activities from
  NSF; requiring that an institution or individual obtain special prior approval ofparticular
  activities from NSF; and requiring that an institutional representative certifY as to the accuracy of
  reports or cettifications of compliance with particular [equirements. 45 CPR § 689.3(a)(l).
  Group IT actions include award suspension or restrictions on designated activities or
  expenditures; requiring special reviews of requests for funding; and requiring correction to the
  research record. 45 CFR § 689.3(a)(2). Group ill actions include suspension or temlination of
  awards; prohibitions on palticipation as NSF reviewers, advisors or consultants; and deba.nnent
  or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

         In determuliug the severity of the sanction to impose for research misconduct, I have _
  considered the seriousness of the misconduct, our determination that it was committed        .
  knowingly, as well as our 'detennination that it waspart of a pattern of plagiarism. I have also·
  considered the fact that your misconduct had no impact on the research record, the fact that you
  displayed contrition for your actions, as well as other relevant circumslances. 45CFR § 689.3(b) .

       . After .assessin~ the relevant facts and circumstances of this case, I am taking the 

 followmg actions agamst you:                        .                       .      .


           (1)    Until APl~l 1,2011, you must provide certifications to the OIG that any proposal
                 .you submIt to NSF as a PI or co-PI does not contain plagiarized falsified or
                  fabricated material; and                                       ,.        ,

          ·(2)   Y                                                       .
                   ou must certifY to the OIG that you have completed a research ethics trauling
                 course Ol~ plagiarism by April 1, 2011.     .  .

    . All certifications and assurances should be subnlitted in writing to OIG, Associate­

Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.' 


Procedures Governing Appeals

.     . Un?~r N~F's l:e~ulations, y~u have 30 days after receipt of this letter to submit an appeal
oftlllSdecIsIo~, ill wntmg, t~ the DUector of~heFolU:dation. 45 CFR § 689.10(a). Any appeal
sho~ld be a~?l~ss.ed to the DIrector at the NatlOnal SCIence Foundation, 4201 Wilson Boulevard,
Arlmgton, "\ lrgtJ)Ja 22230. Ifwe do not receive your appeal within the 30-day peliod, this
                                                                                           Page 3
 decision will become final.

        For your infolmation, we are attaching a copy of the applicable regulations. If you have
 any questions about the foregoing, please call            , Assistant General Counsel, at (703)
 292-8060.



                                                    Sincerely,




                                                     Cora B. MmTett
                                                   . Acting Deputy Director




Enclosures
- Investigative Repoli
   45 C.F.R. Part 689
